CERTIFICATE OF COMPLIANCE
Case No.
Caption: Kannry v. Commissioner of Internal Revenue
As required by Supreme Court Rule 33.1(h), I certify that the document
contains 6,010 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 29, 2020.

Vittorio Virili
Record Press, Inc.

Sworn to before me on
July 29, 2020
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 2024

Notary Public

